lH

*

f ;

10

APPENDIX
TO PETITION FOR WRIT OF CERTIORARI

Case: 19-10431

Document: 00515304912

Page: 1

%

Date Filed: 02/10/2020

V

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-10431
A True Copy
Certified order issued Feb 10, 2020

UNITED STATES OF AMERICA,

sjwt* W. £ou(a
Clerk, U.S. Court of Appeals, Fifth Circuit

Plaintiff-Appellee
v.
JUAN CARLOS AVILA-GONZALEZ
Defendant-Appellant

Appeal from the United States District Court
for the Northern District of Texas

O.RDE R:
Juan Carlos Avila-Gonzalez, federal prisoner # 46958-177, filed a
28 U.S.C. § 2255 motion to vacate, set aside, or correct the life sentences
imposed on his two drug convictions, alleging that he received ineffective
assistance of counsel because his former counsel did not investigate his mental
health and competency before he waived counsel and represented himself at
trial. On remand, see United States v. Avila-Gonzalez, 757 F. App’x 353, 35657 (5th Cir. 2018), the district court conducted an evidentiary hearing and
denied the motion. Avila-Gonzalez now moves for a certificate of appealability
(COA) to appeal that denial. He also moves for correction of a transcript, which
is DENIED because the district court previously properly addressed an
identical motion.
Appendix 1

I

Case: 19-10431

Document: 00515304912

Page: 2

Date Filed: 02/10/2020

No. 19-10431
To obtain a COA, a movant must make “a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). Where a district court
has denied claims on the merits, a movant must show “that jurists of reason
could disagree with the district court’s resolution of his constitutional claims
or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327
(2003).
Avila-Gonzalez fails to make the requisite showing for issuance of a
COA. See id. Accordingly, his motion for a COA is DENIED.
\

Signed: 2-10-2020

Jsl Catharina Haynes_____________
CATHARINA HAYNES
UNITED STATES CIRCUIT JUDGE

Appendix 2
2

Z

4*

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700 ,
600 S. MAESTRI PLACE
NEW ORLEANS, LA 70130

March 20, 2020
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW:
No. 19-10431

USA v. Juan Avila-Gonzalez
USDC No. 4:16-CV-1035

Enclosed is an order entered in this case.
Sincerely,
LYLE W. CAYCE, Clerk
By: ________ __________________
Roeshawn Johnson, Deputy Clerk
504-310-7998
Mr. Juan Carlos Avila-Gonzalez
Ms. Karen S. Mitchell
Ms. Leigha Amy Simonton

Appendix 3

3

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 19-10431

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
JUAN CARLOS AVILA-GONZALEZ
Defendant - Appellant

Appeal from the United States District Court
for the Northern District of Texas

Before HAYNES, GRAVES, and ENGELHARDT, Circuit Judges.
PER CURIAM:
A member of this panel previously denied appellant’s motion for a
certificate of appealability. The panel has considered appellant's motion for
reconsideration. IT IS ORDERED that the motion is DENIED.

Appendix 4

4.

UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
vs •
JUAN CARLOS AVILA GONZALEZ,
Defendant-Appellant.

§
§
§

Appeal No. 19-10431
4:16-CV-1035-A
4:13-CR-0185-A

§

s>

APPLICATION FOR CERTIFICATE OF APPEALABILITY

COMES NOW, Juan Carlos Avila Gonzalez ("Avila-Gonzalez ), and
hereby moves this court for a certificate of appealability, pursuant
to 28 U.S.C § 2253 (c)(2), so that he may appeal the district court's
March 28, 2019, order denying his motion to vacate, set aside or
correct sentence under 28 U.S.C § 2255.

Avila-Gonzalez relies on the attached brief in support of this
i

application.

Respectfully S

Dated on August 20, 2019

Juan Cargos; AviLa-Gonzalez

Prisoner No .

958-177

USP Terre H-dute
P.0 Boxv/33
Terre Jfaute, IN 47808
Appendix 5

5

V

UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

7

§
§
§

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
vs.
JUAN CARLOS AVILA GONZALEZ,
Defendant-Appellant.

Appeal No. 19-10431
4:16-CV-1035-A
4:13-CR-0185-A

§

BRIEF IN SUPPORT OF APPLICATION FOR
CERTIFICATE OF APPEALABILITY
A defendant may not appeal from the denial of a 28 U.S.C §
2255 motion for relief unless either the district court or circuit
judge issues a certificate of appealability ("COA").

For the

reasons that follow, this court should issues a COA authorizing'
Avila-Gonzalez to appeal the district court's March 28, 2019
order denying his § 2255 motion.

I. BACKGROUND
This case involves Juan Carlos Avila Gonzalez (Avila-Gonzalez),
He

who has a long history of mental problems and substance abuse.
has been repeatedly diagnosed as suffering from paranoia,
schizophrenia and other mental problems,

"ROA.24-26" .

He is

also known to suffer from delirium and hallucinations which make
it hard for him to separate reality from fiction,

His mental

defects have lead him to attempt to suicide numerous times in his
past, which has resulted in his hospitalizations in psychiatric
institutions:

On January 28, 1993, Avila-Gonazlez was committed

to a psychiatric hospital in Parral, Chihuahua, Mexico, after
having falling from a second story floor.

As a result of the

Appendix 6
Ip

2
said fall, Avila-Gonzalez skull was fracturated.

After evaluating

Avila-Gonzalez a psychiatric wrote up a report indicating that
Avila-Gonzalez was demonstrating symptoms of delirium, it was also
reported that Avila-Gonzalez also has hallucinations and say he
see all sorts of things:

Skeletons that call him by his name,

dinosaurs that try to stomp on him to squash him, and giant spiders
that try to strangle him.

"ROA.148,392".

On March 31, 1998,

Avila-Gonzalez was again admitted ‘into a psychiatric hospital
after attempting to commit suicide by slitting the veins of his
right arm.

Avila-Gonzalez displays mental problems related with

schizophrenia, paranoia and desillusion. "ROA.150,393".

On April

17, 2009, Avila-Gonzalez was committed to a psychiatric hospital,
following a suicide attempt while under the influence of
me thamphetamine, he attempted suicide by slitting the inferior
vein of his right testicle,

During this time, Avila-Gonzalez

displays symptoms of mental amnesia, does not speak and his gaze
was fixed in vertical position.

"ROA.150,393".

1. Avila-Gonzalez informs counsel Christopher Curtis of his
prior medical history, suicide attempts, and substance
abuse.
On September 19, 2013, after the court detention hearing
concluded Avila-Gonzalez informed counsel Christopher Curtis
that he was suffering from his condition of paranoia and
schizophrenia which was causing him to feel delusional thereby
affecting his ability to understand why he had been arrested
and brought to the court. "ROA.120-126".
2. Avila-Gonzalez explodes in an irrational behavior and
attempted suicide in the presence of counsel.
On September 24, 2013, before the preliminary hearing began,
Appendix 7

7

3
Avila-Gonzalez again reported to counsel that his mental defects
were affecting his ability to understand the proceedings against
him. Id.

Then at the conclusion of the preliminary hearing

Avila-Gonzalez was having so many distorted and delusional
thoughts this day, his mind was recing and blecked out, he started
hearing voices telling him "if you don't kill1 yourself its over",
so Avila-Gonzalez attempted suicide inr.the corridor of the
courthouse by violently striking his head against the floor and
walls in the presence of his family, his counsel and several court
spectators. "ROA.94-126,395-397".
3. Avila-Gonzalez's arraignment hearing.
On October 23, 2013, an arraignment hearing was held where
the magistrate judge inquire through an interpreter whether
Avila-Gonzalez waives the reading of the indictment, and
Avila-Gonzalez answers "no" as he did not understand the nature
of the charges nor the proceedings against him.

"ROA.1301".

4. Counsel William Hermesmeyer takes over as a lead counsel.
On or about October 24, 2013

counsel Hermesmeyer takes

over as a lead counsel and Avila-Gonzalez informed to him about his
mental disorders and explained to counsel how he had attempted
suicide in the courthouse hallway after his preliminary hearing.
"ROA.32".

Furthermore, because Avila-Gonzalez lacks the ability

to consult with Hermesmeyer with a reasonable degree of rational.
understanding, Avila Gonzalez tell him that he wants another
Attorney and counsel Hermesmeyer suggested that Avila-Gonzalez
should ask the Judge to let him represent himself.

"ROA.34".

Then,

Avila-Gonzalez contacted his mother ("Soledad Avila-Gonzalez")
pleading for

her help to retain a private lawyer, unfortunately,
Appendix 8

8

4
his mother did not have the funds necessary to retain a private
lawyer.

"ROA.36,102-1087

Avila-Gonzalez was hallucinating and he

saw his grandma, the lady who die several years ago come and told
him that he can do better then these public defenders "ROA.410" and
with the assistance of another prisoner, Avila-Gonzalez filed a
pro se motion to revoke the public defender "ROA.411".
5. Avila-Gonzalez's irrational behavior, statements and
conduct during pretrial hearings, trial, sentencing and
evidentiary hearing.
On November 08, 2013, a hearing was held on Avila-Gonzalez's
motion to revoke the public defender in which the record reveals
Avila-Gonzalez's incompetency to understand the proceedings
against him.

During the course of this hearing a record was

developed which clearly shows not only that Avila-Gonzalez did not
fully understand and comprehend what the court was saying, but
also the court at many times, didn't understand what Avila-Gonzalez
was saying.

The court asks Avila-Gonzalez several questions and

in response, all the court gets is Avila-Gonzalez's rambling:
THE COURT: Mr. Burns said that you told him that you had
tried cases. What did you mean what did. you tell him.?
AVILA-GONZALEZ: What-What are you saying , Sir.,?
Even the court reporter had a hard time understanding Avila:
THE REPORTER: I'm sorry, I didn't understand you.
"R0A.13ljmi2".
THE COURT: Well, what--what, if any, impidiment you have in
reading and speaking the English language.?
AVILA-GONZALEZ: I'm sorry to say that, but one of the reasons
because I don't want the renresentation of Mr. Chris,
Christopher Curtis, is the second time that he come to the FCI
in Fort Worth, he was smelling like alcohol. "ROA.1315-1316".
Further, the court set the hearing for another: day.
Then, on November 13, 2013, the court held a second Faretta
hearing in which the record again reveals Avila-Gonzalez's
Appendix 9

5
incompetency to understand the proceedings against him and where
he continues to ramble on.

The court asks Avila-Gonzalez if he

was aware that there are procedures to follow if Avila-Gonzalez
want to discovered and Avila-Gonzalez responds.. "Yeah the reason
because I was sending all this letter together or petitions is
because I don't want to be or want Mr. Curt (sic) to be out of the
time, I was scared, you know, before you admitted to by my-- my
own defendant or not, so its the reason.

"ROA.1340-1341".

At

another point of the proceedings the court asks Avila-Gonzalez
whether he would be able to make the proper objections during the
trial and he answer that he was working in that already.

The

court understably, becomes confused as to Avila-Gonzalez's answer,
and asked that "you are doing what.?

"ROA.1354".

The court and Avila-Gonzalez struggled to understand each other:
THE COURT: Mr. Avila, you've heard Mr. Burgess describe the
. evidence, that the government will have that you did..?
AVILA-GONZALEZ: I'm sorry, I have comment for you it's in
--in the same day when the FBI officers or agents that hold..
THE COURT: Mr. Avila, let me stop you there a minute.
I just
want to answer my question.
AVILA-GONZALEZ: Ok. I hear now. "ROA.1347-1348".
Moreover, the court goes on to ask Avila-Gonzalez whether he would
like to have standby counsel, and again Avila-Gonzalez's rambling
confused the court:
THE COURT: Are you telling me that you would like to
have standby counsel..?
AVILA-GONZALEZ: It's no that, it's just to make it -- make
it easier, you know, with the -- the -- .
THE COURT: I can't tell whether you're saying yes or no.
THE COURT: Okay, try to respond as well as you as much, but
I have a hard time following sometimes. "ROA.1335-1356".
Avila-Gonzalez answers to the judge questions with nothing more
than nonsensicals statements:
APPENDIX 10

(0

6
THE COURT: Do you have any familiarity at all with the
Federal Rules of Criminal Procedures.?
AVILA-GONZALEZ: Yeah. I was interested in that couple years.
THE COURT: Well did you study the Rules of Criminal
Procedures.?
AVILA-GONZALEZ: Because I'm always -- I'm always interest
for the law.
THE COURT: Did you study the Federal Rules of Criminal
Procedures.?
AVILA-GONZALEZ: I was interested in study the Federal Rules.
THE COURT: Just Answer the question. "ROA.1361-1363".
Finally, despite the overwhelming evidence of Avila-Gonzalez
incompetence to proceed pro se, the court issued an order granting
his right for self-representation.

Further, from November 14th

thorugh December 16th 2013, Avila-Gonzalez filed numerous motions
which were denied in their totality by the court because did not
meet the requirements chiefly for being incomprehensibles.
At trial, the court explained to Avila-Gonzalez that he had
10 peremptory strikes which he could use to remove 10 jurors he
would like removed from the jury.

"ROA.1471".

Amazingly,

Avila-Gonzalez went on to strike the jurors he actually wanted to
serve in the jury panel,

"ROA.1474,1753-1758".

During the

opening statement Avila-Gonzalez's nonsensical argument cause the
court to stoped him to many times stating:
THE COURT: Mr. Avila we're—we're to talk about this case.
"ROA. 149(7".
THE COURT: Mr. Avila we're supposed to at this point, limit
your comments to a summary of what you expect the evidence
to prove in this case. "ROA.1492".
Avila-Gonzalez did not call any witnesses in his behalf for
the trial and, during the direct examination of the witnesses
offered from the government Avila-Gonzalez's improper arguments,
and his.irrational and obstructionist behavior caused the court
Appendix 11

7
to states:
THE COURT: If you have something you want to address the court
on, you stand up and don't make an argument. "ROA.1492".
Following the court statement in regard to Avila-Gonzalez's
obstructionist behavior, Avila-Gonzalez started laughing without
any reason.

"ROA.1499-1500,1513".

During the court examinations the court reporter was struggled
understanding Avila-Gonzalez:
THE REPORTER: Do you come in here what.? "ROA.1516"
Avila-Gonzalez questions and objections was irrational and repetitive:
THE COURT: I think you've asked those questions, We don't
ROA.1518".
repeat the questions once you get an answer.
"ROA.1519".
THE COURT: Don't keep asking in the subject.
Once again, the court and the government was struggled understanding
Avila-Gonzalez:
THE COURT: What I'm trying to get -- I didn't understand
what you said. "ROA.1550".
THE COURT: I had a little trouble understanding what the
So I'll
defendant was saying when he made the objections,
overrule all of those objections. "ROA.1565".
GOVERNMENT: I’m sorry, I didn't understand what he said,
your honor. "ROA.1574".
THE COURT: I didn’t either. Id.
Avila-Gonzalez's rambling and nonsensical questions to government
witnesses stressed up the court again:
THE COURT: Why . don't you ask a single question, I'm not-you just are rambling now. Just ask question. ROA.1588".
Then again, the court Reporter and the court was struggled
understanding Avila-Gonzalez:
I'm sorry, I couldn't understand you, I'm
THE REPORTER:
sorry, your what. -"ROA.1589,1595".
THE COURT: Mr. Avila,, wait until people are not^longer
talking, let's don't keep repeating ourselves. "ROA.1638".
Appendix 12

12-

8
Notably, in addition to Avila-Gonzalez s incoherent responses
and questionable behavior, he raise around 194 ojections most of
the time incompetently stating:
"Objection 403, My Honor."

Id

Prior to the closing statements the court directly inquired
if Avila-Gonzalez have any objection to the charge and the following
exchange ocurred:
THE COURT: Do you have any objection to that.?
AVILA-GONZALEZ: So can you tell me what is -- what exactly
the charge because I don't really understand.? R0A.1654 .
Following Avila-Gonzalez's conviction at trial, the district
court revoked his pro se status and again appoints counsel William
Hermesmeyer to his case.
On December 17, 2013, barely on day after being convicted at
trial, Avila-Gonzalez again begins to have thoughts of committing
suicide, which results in his placement in 24 hour suicide watch.
See "BOA.164-175".

BOP mental health official diagnosed

Avila-Gonzalez with rule-out borderline personality features,
including reports that Avila-Gonzalez actively enganged in
banging his head against the wall in his cell trying to crack his
skull.

Consultation with the psychiatrist indicated that

Avila-Gonzalez has also thought of hanging himself from his bunk
and ingesting poison as other methods to end his life. "ROA.168".
On December 23, 2013, Avila-Gonzalez was released

from suicide

watch, and Dr. Bellah from the prison psycholoy department
facilitates a phone call for Avila-Gonzalez to counsel Hermesmeyer.
During this call Avila-Gonzalez informed counsel that he had
recently been placed in suicide watch because his mental problems
Appendix 13

9
were causing him to think of committing suicide.

"RpA.120-126".

Then, on December 27, 2013, feeling frustrated with counsel's
lack of concern towards his medical condition, Avila-Gonzalez
filed a motion to the district court, again requesting permission
to represent himself, this time at his sentencing hearing.
On December 30, 2013, as he.continues to view death by
suicide as his only option to resolving his problems, Avila-Gonzalez
was again placed under 24 hour "suicide watch".
On December 31, 2013

"ROA.184-190".

the psychologist Dr. Johnson, wrote that

Avila-Gonzalez was experiencing Hallucinations because he spoke with
a woman who approached him last, night, stating that she would
help him to die

when queried further, he reported that this woman

was his deceased grandmother who has been dead for about 10 years,
Avila-Gonzalez reported she had also visited his jail unit cell a
couple days prior and he reported that he would like her to help
him die as he can't do it anymore because that was just
too much .. "ROA.186".
On January 02, 2014, a third Faretta hearing was scheduled
were the court and Avila-Gonzalez struggled to understand each
other and again Avila-Gonzalez's incompetence stressed up the
court:
THE COURT: Mr. Avila, I have one question that has to do
with an earlier motion you filed that I have denied, What
are you talking about.? "ROA.1753".
THE COURT: I don't understand what you're trying to tell me.
"ROA.1754".
THE COURT: I'm not sure I understand what you are saying.
"ROA. 1755'".
THE COURT: Okay, well, I was just wondering that you. were
telling me. I'm still not sure I understand, but I^think
^
you have probably explained it as much as you can. 'ROA.1757 .
THE COURT: I never understood for sure what you were
doing . ("emphasis addedJU^QA^. 1^758" .
M

10
Moreover, the district court granted again Avila-Gonzalez
permission to represent himself at his upcoming sentencing hearing.
Nonetheless, counsel failed to notify the court in regards of
Avila-Gonzalez's thoughts of suicide of incompetence.
Prior to the sentencing proceeding Avila-Gonzalez files a motion
to continuance the sentencing hearing "ROA.1021"

stating that he

feel's mentally incompetent to be part of the sentencing hearing
and when the opportunity arrived Avila-Gonzalez said nothing of
his alleged incompetence because in fact he was incompetent to
prove his own iricompetency.

"ROA.1770-1775",

Also, Avila-Gonzalez

filed a several improper objections to the PSR, and that, during
sentencing, Avila-Gonzalez statements again was nonsensicals:
THE COURT: I'm sorry, I wanted to know--you must have
misunderstood. "ROA.1770-1771"
THE COURT: Is that what you're basing your plea that you don't
have -- the court doesn't have jurisdiction over you.?
AVILA-GONZALEZ: No. I need it because the fact findings or the
evidence is not enough to convict me. "ROA.1773".
Finally, completely unaware of Avila-Gonzalez's prior medical
history, the district court sentences him to life in prison without
a competency determination, because both his Attorneys failed him
at every opportunity.
Avila-Gonzalez appealed his conviction and sentence j then in
his direct appeal, Avila-Gonzalez catalogs 31 points of error, some
.of the issues was not briefed at all, others was inadequately
briefed, and many involve the same claims couched under various
headings and theories of law, this court affirmed his conviction
and sentence.

On November 02, 2016, Avila-Gonzalez timely filed

his first § 2255 motion and supporting memorandum. "ROA.10-200".
Appendix 15

.

is

11
On January 26, 2017, the district court denied. Avila-Gonzalez' s
§ 2255 motion.

"ROA.267" Avila-Gonzalez appealed and this court

remanded in part for an evidentiary hearing to address the
ineffective assistance claim relating to counsel's alleged failure
to investigate Avila-Gonzalez's competency to waive counsel. See
United States v. Avila Gonzalez, 757 Fed. Appx. 353 (5th Cir. 2018).
On March 28, 2019, the court held an evidentiary hearing in
which the record clearly shows that Avila-Gonzalez lacks the
ability to understand the proceedings:
MR. DAVIS: Are you the plaintiff, the person who has filed
this case.?
AVILA-GONZALEZ: What is that ?
MR. DAVIS: You filed a 2255 motion, right?
AVILA-GONZALEZ: Yeah, somebody filed for me.
MR. DAVIS: Okay. And you're the person that wants the relief
here, right? You're asking for help from the court?
AVILA-GONZALEZ:.What that means?
THE COURT: What do you expect to get out of your motion?
AVILA-GONZALEZ: What -THE COURT: What do you expect? What relief do you think
the court should give you from your motion ?
AVILA-GONZALEZ: I don't know. "ROA.391-392".
During the evidentiary hearing, incompetently Avila-Gonzalez
disclosed to the court his prior attempts to commit suicide:
MR. DAVIS: Sir. Have you attempted to commit suicide?
AVILA-GONZALEZ: Yes, Sir.
MR. DAVIS: How many times?
AVILA-GONZALEZ: I think more than three.
MR. DAVIS: When was the first attempt?
AVILA-GONZALEZ: A long time ago.
MR. DAVIS: Do you recall aproximately when?
AVILA-GONZALEZ: No, I was younger.
MR. DAVIS: And how did you attempt suicide then?
AVILA-GONZALEZ: How?
Appendix 16

12
MR. DAVIS: How, yes. What method?
AVILA-GONZALEZ: The first time?
■MR. DAVIS: The first time, yes.
AVILA-GONZALEZ: I believe I jumped from the second floor
in a house.
MR. DAVIS: You jumped out?
AVILA-GONZALEZ: Yeah.
MR. DAVIS: And did that cause you serious injury?
AVILA-GONZALEZ: I believe so.
MR. DAVIS: When was the second time you attempted suicide?
"R0A.392".
AVILA-GONZALEZ: Five years after, I guess.
AVILA-GONZALEZ: I cut a vein in my right arm, right here.
I am still got the scar, it's a big scar right here.
MR. DAVIS: And you attempted suicide another time?
AVILA-GONZALEZ: I tried something to some to me, I tried to
cut my right testicle on my body?
MR. DAVIS: Okay and you used a knife?
AVILA-GONZALEZ: Yeah, razor, yeah.
Avila-Gonzalez's counsel (Mr. Davis) and the court reporter was
struggled understanding Avila-Gonzalez's statements:
MR. DAVIS: And why did you attempt suicide?
AVILA-GONZALEZ: Just --just because I -- my mind -- my
brain is a blink out.
THE REPORTER: I'm sorry? "ROA.393".
AVILA-GONZALEZ: Blink out, blink out, like a
AVILA-GONZALEZ: Blink, blink, like get out, like --for
that moment, I don't feel like I can think. My brain
my nerve is raising up. "ROA.394"♦
Multiple times, during the evidentiary hearing Avila-Gonzalez' s
rambling stressed up his counsel (Mr. Davis):
MR. DAVIS: When you were arrested on this case and were
leaving court after your preliminary and detention hearing
and you had learned that you were being detained in custody,
did you attempt suicide then?
MR. DAVIS: And tell us how.
AVILA-GONZALEZ: Well, the first thing I'm going to -- the
reason why, that was not because of the -Appendix 17

n

13
MR. DAVIS: I would ob-ject as non responsive, Your Honor.
"R0A.3yy'.
AVILA-GONZALEZ: I hear the voices directing me to kill
when I myself and it's when I -- and it's when I
I lose completely my control, and I start like a - like
a convulsioning and trying to get away from the marshals
because they got me from this guy -- side And finally, I
got into the floor, and I banged myself, my head, I don't
remember how many times in the floor, and is when the US
marshals saved my life because the -- the shift of the
U.S marshals, I remember he talked to me. "ROA.395-396".
During the evidentiary hearing Avila-Gonzalez was experiencing
multiple psychotic episodes as a result of a circuit malfunction
in the microchip of his brain ... (The Court Reporter, misstated
this part of the proceeding):
MR. DAVIS: And did you talk to him about what happened and
your condition?
AVILA-GONZALEZ: Can you give me one second?
MR.~ DAVIS: I'm sorry.
AVILA-GONZALEZ: Can you give me one second?
MR. DAVIS: Yeah absolutely.
AVILA-GONZALEZ: I feel something. (Avila-Gonzalez was
convulsioning shacking and stretching his neck as a
result of a'circuit malfunction in the microchip installed
in his brain. (Brief Pause) Okay. Go ahead. "ROA. 39.8".
The record of the evidentiary hearing clearly develops counsel's
failure to investigate Avila-Gonzalez competency to waive counsel
after that counsel was put on notice by Avila-Gonzalez of his
mental health problems’:’
AVILA-GONZALEZ: And I told him because I'm not right, I have
a mental problems in the -- in the past and I was experiencing
"ROA.399".
that.
Avila-Gonzalez, explained to the court part of his hallucinations:
AVILA-GONZALEZ: I see my death grandma coming into my cell,
close the door and talk to me, I see always like people
crossing in the hallways by the door and the windows. During
the nights they wake me up, I'm also struggle with the voices
I'm still hearing voices. "ROA.401".
Appendix 18

14
AVILA-GONZALEZ: It's just like voices. You hear the voices.
Like, if I hear -- I hear the voices, people talking about
me, right there in the corner about me, and it's nobody there,
saying most of the times that left me because I'm a loser. You
know, I'm a loser. I lose everything. So, it's some kind of
like an echo, like.you feel like an echo, like a room, empty
room. "ROA.402".
Avila-Gonzalez proves to the court during the evidentiary hearing
that he is schizophrenic and delusional:
AVILA-GONZALEZ: The day, I hear clearly what they say. The
voices is not talking to me. Sometimes they not direct to me
no more after I have AGAB (sic). AGAB, when he came to my
cell like two years ago. I was in my room. you know who is
AGAB, right? Agab is Archangel Gabriel. He come to my room
and he helped me.
MR. DAVIS: Tell us how he helped you.
AVILA-GONZALEZ: I was having the feeling to kill myself I
was close to do that when something like a strong light
appears in front of me and that was like a fear of the big
angels, he say Carlos is time to you to stop. I'm going to
do something for you and is when he installed in my brain,
it's -- it's like a microchip. I still have the scar here
in my head.
MR. DAVIS: This person installed the microchip?
AVILA-GONZALEZ: He shoot it for me in my brain. I got it.
"ROA.403-404".
THE COURT: Who was controlling you through the microchip?
AVILA-GONZALEZ: Archangel Gabriel. Agab. "ROA.405".
AVILA-GONZALEZ: I'm still hear vocies sometimes what I do is
I put toilet paper in my ears sometimes. It's just hear like
people talking, talking, talking, talking, talking, talking,
talking. "ROA.406".
Then, again Avila-Gonzalez proves to the court that he put on notice
both attorneys regarding his mental health problems:
MR. DAVIS: And did you ask you attorneys for help?
AVILA-GONZALEZ: I did I mentioned it to both attorneys, to
Chris and William, both. "ROA.406-407".
Avila-Gonzalez proves to the court that he did not understand the
proceedings:
MR. DAVIS: So if I'm understanding what you're saying, back
in that time period, sometimes people would speak to you
and you wouln't hear normal words?
AVILA-GONZALEZ: No, I don't.
I never find a proper way to
Appendix 19

15
I was not really
direct with him or to talk about the case,
understand what happened, what is the reason of the
proceedings, you know. "ROA.407-408".
MR. DAVIS: Tell us about how you communicated with
Mr. Hermesmeyer.
AVILA-GONZALEZ: I'm also -- the stuff that he was telling
the
the
the
me, I take it in the wrong way. The
the
deal
that
-the
negotiations
that
the communication -he tried to do with me, that would -- I never suppose I never
understand what he tray saying I was feeling mentally ill at
MR0A.409-410".
that time.
THE COURT: When did you decide that you wanted to represent
yourself in the trial?
AVILA-GONZALEZ: When my grandma -- my grandma, the lady, she
die like 50 years ago, I don't know, she come and tell me
that I can do better than these public defenders because that
---- she explained to me that -- and she and somebody else in
jail explained to me that is a legal process, so I was -I was of the belief that I can do it too. "ROA.410-411".
Then, again Avila-Gonzalez experienced another psychotic episode
as a result of a circuit malfunction in the microchip of his
brain ... (Again the court Reporter failed to transcribe this part
of the proceeding:
MR. DAVIS: The -- you described many times -AVILA-GONZALEZ: Can you give me one second, Please?
MR. DAVIS: Sure.
AVILA-GONZALEZ: Just my nerves. (Avila-Gonzalez was
convulsioning shacking and stretching his neck as a result
of a circuit malfunction in the microchip installed in his
(Brief Pause) Okay. All right Sir. I'm sorry.
brain.
"ROA.414".
Then, Avila-Gonzalez disclosed to the court the name of several
family members with mental health issues:
His aunt Valim Avila who lives in Mexico City and was
struggled with schizophrenia when she was younger and
institutionalized in a mental health hospital in Chihuahua,
Mexico. His cousin, Ana Avila who lives in Fort Worth,
Texas, and is struggled with schizophrenia, she was
hospitalized in mental health places because she attacks
people. And another aunt who lives in Fort Worth too but
he did not mention her name. "ROA.415-416".
Appendix 20

Z0

16
Also during the government crossexamination the record clearly
shows Avila-GonzalezTs incompetency:
GOVERNMENT: And the
oriented?

record says that you were alert and

AVILA-GONZALEZ: I deny. I deny everything to the lady.
I remember that when she asked me for the things.
GOVERNMENT: No mental health complaint?
AVILA-GONZALEZ: I'm sorry?
GOVERNMENT: You didn't complaint about your..
"ROA.419".
AVILA-GONZALEZ: I am
GOVERNMENT: And you were visited by BOP psychiatrist while
you were on suicide watch, right?
AVILA-GONZALEZ: Yes, I was there. "R0A.420".
GOVERNMENT: Do you remember the judge appointing Danny Burns
to represent you?
AVILA-GONZALEZ: Sir, excuse me, Mr. Prosecutor. Can you
please go some kind of slow because I can't catch exactly
what you are telling me. "R0A.422". '
Finally-, despite the overwhelming evidence in the record of
Avila-Gonzalez incompetency, the district court denied Avila-Gonzalez s
§ 2255 motion in its enterity without psychiatric evaluation. "ROA.478".
II. STANDARD OF REVIEW
In order to obtain a COA, Avila-Gonzalez must make a
"substantial showing of the denial of a constitutional right."
28 U.S.C § 2253 (c)(2).

Where a district court has rejected the

constitutional claims on the merits, the showing requires
to satisfy § 2253 (c) is strightforward.

Avila-Gonzalez must

demonstrate that reasonable jurists would find the district
court's assessment of the constitutional claims debatable or
wrong." Slack v. McDaniel, 529 U.S 473, 484 120 S. Ct. 1595
Appendix 21

z\

17
146 LEd. 2d 542 (2000).

In generally assessing the claims for

relief in a COA application, "[Tjhe question is the debatability
of the underlying constitutional claim, not the resolution of the
debate.

"A petitioner satisfies this standard by demonstrating

that jurist of reason could disagree with the district court's
resolution of his contitutional claims or the jurists could
conclude the issues presented are adequate to deserve encouragement
to proceed further.

Reed v. Stephens, 739 F3d 753 (5th Cir. 2014);

Miller-El v. Cockrell, 537 US 322, 336 123 S. Ct... 1029 (2003).

This

court must decide whether to grant a COA "without full consideration
of the factual or legal basis adduced in support of the claims" and
without deciding the merits of the appeal.

Buck v. Davis, .137 S. Ct.

759, 753 (2017)(Internal quotation marks and'citation omitted).
III. ISSUE PRESENTED FOR REVIEW
Avila-Gonzalez mantains that this court should authorize a
COA on the following issue:

Whether the district court erred by denying
Avila-Gonzalez's claim that he received
ineffective assistance of counsel based
on failure to investigate his medical
history and to move for an examination of
his competence to waive counsel.

Appendix 22

Z2-

18
IV. DISCUSSION
Due process prohibits the conviction of a person who is
mentally incompetent.

Indiana v. Edwards, 554 U.S 164, 170, 128

S. Ct. 2379, 171 L.Ed 2d 345 (2008).

"This constitutional right

cannot be waived by the incompetent by guilty plea or otherwise ...
Carrol v. Beto, 412 F.2d 1065, 1067 (5th Cir. 1970).

While a guilty

plea may only be attacked, on the basis that it was not knowing and
voluntary, "it is contradictory to argue that a defendant may be
incompetent, and yet knowingly or intelligently 'waive' his
rights ... "Pate v. Robinson, 383 U.S 375, 384, 86 S. Ct. 836,
The test of incompetency is whether a

841 15 L.Ed 2d 815 (1966).

defendant has "sufficient present ability to consult with his
lawyer with a reasonable degree of rational understanding -- and
whether he has a rational as well as factual understanding of the
proceedings against him.

"Dusky v. United States, 362 U.S 402,

80 S.Ct. 788, 4 L.Ed 2d 824 (1960)(citation omitted).

See e.g,

Acosta v. Turner, 666 f.2d 949, 954 (5th Cir. 1982); Lokos v. Capps,
625 F.2d 1258, 1261 (5th Cir. 1980); Bolius v. Wainwright, 597
F.2d 986 (5th Cir. 1979).
It is undisputed that Avila-Gonzalez suffers from paranoia,
schizophrenia and delusions.

It is also clear from the record

"ROA.148-150" and the testimony at the evidentiary hearing
"ROA.391-396,398-401,414-416,419-420,422" that, in all probability,
Avila-Gonzalez suffered from this disorders both at the time of
his offense and at the time of his waiver of counsel rendering him
unable to understand the proceedings and to assist in his own
defense.
Appendix 23

23

19
Here, beacause the district court's findings of fact are
"clearly erroneous"

Avila-Gonzalez's seeks a COA in the issue

that whether the district court erred by denying his claim that
he received, ineffective assistance of counsel based on failure
to investigate his medical history and to move for an examination
of his competence to waive counsel.

Avila-Gonzalez conviction

was obtained in violation of the Sixth Amendment right to counsel
and the right to effective assistance of counsel,

For the reasons

that follow, a COA should to be granted:
1. Failure to Investigate.
In his § 2255 motion, Avila-Gonzalez asseYle'di that he received
ineffective assistance of counsel because his attorneys failed to
conduct a competency investigation.

Avila-Gonzalez alleges that

he told his lawyers after his arrest that he had previously
attempted suicide and that he was suffering from paranoia and
schizophrenia.

In the past these conditions had forced him to

spend time in a mexican mental hospital,

Twice before being charged

in this case his mental condition lead him to attempt suicide,
not including a suspicious fall from a second story that left his
skull cracked.

Avila-Gonzalez also attempted suicide in the

courthouse with counsel present after his preliminary hearing.
prison put him on suicide watch and Avila-Gonzalez asked counsel
to notify the court,

His counsel knew about all this and failed

to investigate.
Avila-Gonzalez's testimony was corroborated by records from
hospital de Jesus showing that he was hospitalized, three times
over a period of several years (From 1993 up to 2009) for
Appendix 24

The

20
schizophrenia, paranoia and delusions, "ROA.142-150".

He included

with his motion a clinical file or "psychiatric hospitalization
evidence" that was readily available to his attorneys upon
investigation, but which he argued his attorneys never presented
to the district court.

Id.

Along with his § 2255 motion,

Avila-Gonzalez submitted several affidavits from his family in
support of his clai.m'T

"ROA. 94-126"T"\[n this affidavits,

Avila-Gonzalez family declares how they witnesses Avila-Gonzalez' s
psychotic episode when he attempted suicide at the conclusion of
the preliminary hearing.
On remand, following an evidentiary hearing, the district
court rejected Avila-Gonzalez' s IAC claim by accepting the testimony
of counsel Curtis and Hermesmeyer expressing that each of them provided
constitutionally effective assistance of counsel to Avila-Gonzalez in the
respects related to his competency or anything having to do with his mental
health.

Finding that either of them had any reason to move for a

court-ordered psychiatric evaluation of Avila-Gonzalez or his
competency to enter a plea or to waive his right to counsel or to
stand trial.

Stating that even if each of them had informed the

court of all of the things they have testified to that would bear
on Avila-Gonzalez1s mental state, the court neverthless would
have authorized the defendant to represent himself.
Avila-Gonzalez mantains that reasonable jurists would debate
the district court's rejection of his IAC claim because he has
established that his counsel's performance was deficient and
prejudiced his case.

Specifically, he mantains that: (1? the

district court applied the wrong legal standard in evaluating his
Appendix 25

&

21
IAC claim, (2) trial counsel's failed to perform a competency
investigation and therefore failed to move for a court appointed
psychiatric examination, and (3) that he was prejudiced by
counsel's deficient performance.
To succed on an IAC, a defendant must satisfy the two-prong
test enunciated in Strickland v. Washington, 466 U.S 668 (1984).
First, a defendant must demonstrate that counsel preformance fell
below an objective standard of reasonableness.

Second, a defendant

must prove that, but for counsel's deficient performance the
outcome of the proceeding likely would have been different.
A. Deficient Performance.
The objective standard of reasonableness is measured "under
prevailing professional norms."

Rompilla v. Beard, 545 U.S 374

380, 125 S. Ct. 2456, 162 L.Ed 2d 360 (2005)(quoting Strickland,
. 466 U.S. at 688) . In assessing the reasonableness of an attorney
investigation, a court must consider not only the quantum of
evidence already known to counsel, but also whether the known
evidence would lead a reasonable attorney to investigate further.
Rompilla, 545 U.S 374.

"[Aj defendant who alleges a failure to

investigate of the part of his counsel must allege with specificity
what the investigation would have revealed and how it would have
altered the outcome of the trial." Trottier v. Stephens, 720 F.3d
231, 243 (5th Cir. 2013)(quoting Druery v. Thaler, 647 F.3d 535,
541 (5th Cir. 2011)). cf. Theriot v. Whitley, 18 F.3d 311 314
(5th Cir. 1994)(finding no ineffective assistance when the record
neither supports nor refutes that counsel was aware of the
defendants suicide attempt in Jail).
Appendix 26

lip

22
Avila-Gonzalez alleges that counsels failure to investigate
and move for a court psychiatric evaluation fell below an objective
standard of reasonableness.

Here, Avila-Gonzalez put Christopher

Curtis and William Hermesmeyer on notice as to his prior
hospitalizations, suicide attempts and substance abuse. "ROA. 44-48'.'
The Fifth Circuit has held that once counsel has been put on notice
he must investigate his client's.medical history.

See Profitt v.

Waldron, 831 F.2d 1246 (5th Cir. 1987); Beavers v. Balckrom,
F.2d 114 (5th Cir. 1981).

636

The court further reasoned that, for

counsel to do no investigation at all on an issue that not only
implicates the accuse's only defense, but also his competence, is
not a tactical decision, "because tactical decisions must be made
in the context of a reasonable amount of investigation, not in a
vaccum."

See Bouchillon v. Collins, 907 F.2d at 597 (5th Cir. 1990).

Further, counsel had ocassion to witness Avila-Gonzalez erupt in
an irrational outbreak and attempted to commit suicide in the
courthouse hallway.

"ROA.28", see also affidavits of Carlos

Fuentes, Soledad Avila Gonzalez, Guadalupe Fuentes, "ROA.94-116" ,
stating that they also witnesses when Avila-Gonzalez attempted
suicide in the courthouse hallway.

Counsel Curtis also witnesses

Avila-Gonzalez abnormal and irrational behavior during his visits
with him, and nonetheless counsel failed to investigate and move
for a court appointed evaluation to determine whether Avila-Gonzalez
was competent, had this happened, he would have been discovered
that Avila-Gonzalez in fact, suffers from paranoia, schizophrenia,
delusions, delirium, hallucinations and other mental problems which
make it difficult for him to understand the proceedings against him,
Appendix 27

23
and therefore the district court would not have permitted him
to enter a plea, waive his right to counsel or stand trial, at least
until he was determined competent to do so.
The events outilined above, clearly demonstrates that counsel
Curtis and Hermesmeyer was unequivocally put'.on notice of
Avila-Gonzalez's mental defects and prior medical history,
Profitt, 831 F.2d 1245, and also that counsel "had reasonable
cause to believe that his client may [havej been incompetent",
and yet, counsel did "no investigation at all on an issue that
not only implicat[dj [Avila-GonzalezJ only defense, but also
his competency, "Bouchillon, 907 F.2d at 597, "Nor at any time
during the proceedings did counsel notify the court of this
information.

See Drope v. Missouri, 420 U.S 162 (1975).

("Judges must depend to some extent on counsel to bring issues
into focus").

Therefore, by no investigating Avila-Gonzalez's

medical history and failing to move for a court order psychiatric
examination of Avila-Gonzalez's competency and failing to notify
the court as to Avila-Gonzalez's abnormal and irrational behavior,
counsel performed ineffectively, See Profitt, 831 F.2d 1245;
Beavers, 636 F.2d 114; Bouchillon, 907 F.2d at 1126; Saldano v.
Davis, 2017 U.S App. LEXIS 11497 (5th Cir. 2017).

First

Strickland prong.
B. Counsel's deficient performance prejudiced Avila-Gonzalez.
To meet the prejudice prong of Strickland and prevail on the
merits, Avila-Gonzalez must show that, had counsel investigated
his competence to enter a plea, waive his right to counsel and
stand trial "there was a reasonable probability that he was in
fact incompetent sufficient to undermine confidence in the
Appendix 28

24
outcome.

See Theroit v. Whitlex, 18 F.3d 311 314 (5th Cir.1994).

A reasonable probability is a lesser burden of proof than the
preponderance standard.

Bouchillon, 907 F.2d at 695.

Avila-Gonzalez's irrational behavior, his incoherent or
disordered speech and conduct during pretrial, trial, sentencing
and evidentiay hearings proves that he was incompetent to
proceed.

"ROA.391-396,398-401,414-416,419-420,422,478,1310-1311,

1315-1316,1340-1341,1354-1356,1361-1363,1471,1474,1490,1492,
1499-1500,1513,1516-1517,1550,1565,1574,1584,1588-1589,1595,1638
1654,1753,1755,1757-1758,1770-1771,1773".

Aditionally, in this

case unlike Strickland, evidence is presented that Avila-Gonzalez
has a clinical recognized mental disorders "ROA.142-i50" along
with Avila-Gonzalez's suicide attempt at the conclusion of the
preliminary hearing and the affidavit from a third reliable
persons "ROA.88-126" ultimately demonstrates a reasonable probability
that Avila-Gonzalez was incompetent.

Also, the records from the

BOP mental health officials clearly describe Avila-Gonzalez as
suffering from hallucinations, delusions and suicidal ideations
were Avila-Gonzalez reported to the psychiatrist that he actively
engaged in banging his head against the wall in his cell so that
he could crack his skull and later reported that he thought of
hanging himself from his bunk and ingesting poison as other
method to end his life "ROA.168".

Moreover, the psychologist

wrote that Avila-Gonzalez spoke with a women who approached him
last night stating she would help him to die, when queried
further, Avila-Gonzalez reported that this woman was his deceased
grandmother who has been dead for about 10 years.
Appendix 29

Avila-Gonzalez

iV

25
"4

-4

reported that she had also visited his jail unit cell a couple
days prior.

"ROA.186".

In light of the evidence, there may have

been sufficient indicia of incompetence to give objectively
reasonable counsel reason to doubt Avila-Gonzalez's competency.
Therefore, had Avila-Gonzalez^s counsels presented this evidence,
the district court would have had Avila-Gonzalez examined in order
to determine his competency and would not have permitted him to
enter a plea, waive his right to counsel and stand trial,

In this

case, it is undisputed that considering Avila-Gonzalez schizophrenia
and brain conditions he could not fully appreciate the dangers,
disadvantages and the daunting task of self-representation, and
therefore could not knowing and intelligently waive his right to
counsel "with eyes open".

See Robinson v. Louisiana, 2015 U.S app.

LEXIS 4871 (5th Cir.2015); Holland, v. Florida, 2014 U.S App. LEXIS
24505 (11th Cir. 2014).
173

The Supreme Court in Indiana, supra at

held that the schizophrenic defendant unfit to conduct pro se defense

and could not knowingly and intelligently waive his right to counsel given his
mental condition.

"One might not be insane in the sense of being incapable

V

of standing trial and yet lacked the capacity to stand trial without benefit of
counsel".

Here, Avila-Gonzalez's condition exists and thereby he was not able

to competently represent himself pro se.

Accordingly, because Avila-Gonzalez

was in fact,incompetent, his plea and waiver of counsel was ineffective and he
was prejudiced by its entry.
CONCLUSION
For the reasons stated, Avila-Gonzalez pray this court to
grant the instant application by issuing a C0Ay on the issue presented
herein, and set a briefing schedule in this'lease
Dated on August 20, 2019

R e s p e^t f u11 y ,/^ibnji
Juan
Appendix 30
&

